 Report No. DODIG-2013-102   July 1, 2013




Improved Oversight of Communications
 Capabilities Preparedness Needed for
        Domestic Emergencies
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector General
website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary Reports Distribution
Unit at auditnet@dodig.mil.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing at
auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
BUB                           Battle Update Brief
CIO                           Chief Information Officer
COMMEX                        Communications Exercise
DSCA                          Defense Support of Civil Authorities
JCCC                          Joint Command, Control, Communications, and Computers
                                  (C4) Coordination Center
JISCC                         Joint Incident Site Communications Capability System
JROC                          Joint Requirements Oversight Council
NAWCAD SCR                    Naval Air Warfare Center Aircraft Division-Special
                                 Communications Requirements Division
NG                            National Guard
NGB                           National Guard Bureau
POR                           Program of Record
RTI                           193rd Regiment Regional Training Institute
SOP                           Standard Operating Procedure
TR                            Trouble Report
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                              4800 MARK CENTER DRIVE
                           ALEXANDRIA, VIRGINIA 22350-1500



                                                                            July I, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR POLICY
               COMMANDER, U.S. NORTHERN COMMAND
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               CHIEF, NATIONAL GUARD BUREAU
               DIRECTOR, JOINT STAFF
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Improved Oversight of Communications Capabilities Preparedness Needed
         for Domestic Emergencies (Report No. DODIG-20!3-!02)

We are providing this repmt for your information and use. National Guard Bureau
officials did not always ensure that DoD communications equipment was available,
maintained, staffed, or ready for use during a domestic emergency. As a result, DoD may
experience reduced communications during domestic emergencies, which may adversely
affect rescue and relief efforts and increase the risk of physical and economic damages
and human casualties.

We considered management comments on a draft of this repmt when preparing the final
report. The Director, NG-J6/Chieflnformation Officer, National Guard Bureau,
responded on behalf of the Chief, National Guard Bureau. Comments from the Director,
NG-J6/Chieflnformation Officer, conformed to DoD Directive 7650.3. Therefore, we do
not require additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).


                                     /) ri.· ...~- .· ·. 1
                                                         l\~ 1x ,L'-t.v-/
                                                         1
                                    (Jlz     J.- cc ,..:z, l_i,_     U
                                     Alice F. Carey
                                     Assistant Inspector General
                                     Readiness, Operations, and Suppmt
Report No. DODIG-2013-102 (Project No. D2012-D000LA-0152.000)                                      July 1, 2013


                Results in Brief: Improved Oversight of
                Communications Capabilities Preparedness
                Needed for Domestic Emergencies

                                                                    35 (64.8 percent) of 54 locations, of which
What We Did                                                         12 (22.2 percent) locations sent no operators
Our objective was to determine whether DoD                          since the course inception in July 2008; or
communications equipment was available,                            completely and accurately reported critical
maintained, staffed, and ready for use to ensure                    elements of JISCC readiness, including
interoperability during a domestic emergency.                       underreporting the length of JISCC outages
National Guard (NG) personnel are the military first                in at least 32 instances.
responders for most domestic emergencies. The
National Guard Bureau (NGB) fielded 97 Joint                These conditions occurred because NGB officials
Incident Site Communications Capability systems             did not have adequate oversight procedures in place
(JISCCs) to NG units across 54 states, territories,         to monitor sustainment of JISCCs provided to NG
and Washington, D.C. (locations) to address the lack        units. As a result, DoD may experience reduced
of interoperable communications capabilities                communications when coordinating with Federal,
identified after the September 11th terrorist attacks       state, and local first responders during future
and Hurricane Katrina. NG units used the JISCC to           domestic emergencies, which may adversely affect
communicate with first responders and Federal and           rescue and relief efforts and increase the risk of
state agencies through high-frequency radio,                physical and economic damages and human
telephone, video, and satellite.                            casualties.


What We Found                                               What We Recommend
NGB officials did not always ensure that                    Among other recommendations, we recommend that
interoperable communications equipment was                  the Chief, National Guard Bureau, establish
available, maintained, staffed, or ready for use            oversight procedures, including performance
during a domestic emergency. Specifically, NGB              metrics, to verify that National Guard units resolve
officials fielded JISCCs, but did not always ensure         repair and troubleshooting actions for the Joint
that NG units:                                              Incident Site Communications Capability system in
                                                            a timely manner.
       processed 44 (27.0 percent) of 163 Trouble
        Reports active more than 30 days from               Management Comments and
        November 2011 through September 2012
        (average delay: 78.3 days) in a timely
                                                            Our Response
        manner;                                             The Director, NG-J6/Chief Information Officer,
       prepared 5 JISCCs for scheduled                     National Guard Bureau, responded on behalf of the
        information assurance assessments between           Chief, National Guard Bureau and agreed with the
        June and September 2012;                            recommendations. Comments were responsive.
       sent a sufficient number of JISCC operators         Please see the Recommendations Table on page ii.
        to NGB-authorized JISCC training in




                                                        i
Report No. DODIG-2013-102 (Project No. D2012-D000LA-0152.000)   July 1, 2013


Recommendations Table

        Management              Recommendations             No Additional
                               Requiring Comment        Comments Required
Chief, National Guard Bureau                          1, 2, 3, and 4




                                     ii
Table of Contents

Introduction                                                               1

      Objective                                                            1
      Background                                                           1
      Efforts to Improve Communications Interoperability During Domestic
       Emergencies                                                         2
      Solution for Communicating With First Responders and Federal and
       State Agencies                                                      3
      Review of Internal Controls                                          4

Finding. Interoperable Communications Equipment Was Not Always Available,
Maintained, Staffed, or Ready for Use                                     5

      Availability Concerns Addressed Through Communications Equipment
        Fielding                                                            5
      Communications Equipment Repairs Delayed                              6
      Systems Were Not Prepared for Scheduled Information Assurance
        Assessments                                                        7
      Insufficient Number of Communications Equipment Operators Sent to
        National Guard Bureau-Authorized System Training                    7
      Readiness Reporting Procedures Were Error Prone and Incomplete        8
      Improved Oversight Needed for the Repair and Maintenance Processes   10
      Better Oversight of Training Requirements Needed                     11
      Readiness Reporting Practices Needed Improvement                     12
      National Guard Bureau Strategy for Communications Equipment
        Sustainment                                                        12
      Conclusion                                                           14
      Management Comments on the Finding and Our Response                  14
      Recommendations, Management Comments, and Our Response               14
      Management Comments on the Review of Internal Controls and
        Our Response                                                       16

Appendixes

      A. Scope and Methodology                                             18
             Use of Computer-Processed Data                                20
             Prior Coverage                                                20
      B. States With Insufficient Numbers of Trained Personnel             22

Management Comments
     National Guard Bureau                                                 24
Introduction
Objective
Our original objective was to determine whether DoD satellite communications services
and equipment were interoperable during a national emergency. During our planning
phase, we identified and focused our audit on specific equipment fielded to address
interoperability preparedness for domestic emergencies. Additionally, we clarified
terminology related to national/domestic emergencies in the objective. Our revised
objective was to determine whether DoD communications equipment was available,
maintained, staffed,1 and ready for use to ensure interoperability during a domestic
emergency. According to National Guard Bureau (NGB) officials, National Guard (NG)
personnel are the military first responders for most domestic emergencies. During our
fieldwork phase, we focused on the Joint Incident Site Communications Capability
system (JISCC), a specific type of DoD equipment fielded to, and routinely employed by
NG personnel during domestic emergencies to achieve interoperability and facilitate
information exchange. See Appendix A for a discussion of the scope, methodology, and
prior coverage.

Background
DoD Directive 3025.18, “Defense Support of Civil Authorities (DSCA),”
December 29, 2010, establishes authorities and responsibilities for DSCA missions. DoD
provides DSCA through active military forces (primarily under the command and control
of the U.S. Northern Command), DoD Component assets, and NG units,2 when requested
by civil authorities or by qualifying entities,3 or when directed by the President or
approved by the appropriate DoD officials. According to NG Regulation 500-1,
“Domestic Operations,” June 13, 2008, Army NG and Air NG units (primarily under the
command and control of the Governor) are the first military responders onsite when a
domestic emergency occurs. In addition, disaster response operations fall within DoD’s
Homeland Defense and Civil Support mission. An August 2006 Joint Requirements
Oversight Council (JROC) memorandum states that the NGB, Command, Control,
Communications, and Computers Directorate, identifies and delivers communications
capabilities required to support Homeland Defense and Civil Support disaster response
operations. According to the NG news archives, NG’s largest response to a domestic
emergency was Hurricane Katrina in August 2005.




1
  For the purposes of this audit, “staffing” is defined as NG unit personnel trained to operate and maintain a
JISCC. According to NGB JISCC Standard Operating Procedures, no personnel are currently assigned to
the JISCC through DoD formal means and, therefore, staffing for the JISCC operations and maintenance
comes from existing units and organizations within states, territories, and Washington D.C.
2
  For the purposes of this audit, NG units include Joint Forces Headquarters-State.
3
  A qualifying entity is a nongovernmental organization that DoD may assist during special events by virtue
of statute, regulation, policy, or other approval by the Secretary of Defense (or authorized designee).

                                                      1
Hurricane Katrina caused death and destruction throughout the Southeastern United
States, particularly in Louisiana and Mississippi. The hurricane left more than
2,500 dead or missing and, according to a National Hurricane Center report, caused an
                                                 estimated $108 billion in total damages.
             Figure 1. Satellite View of         Hurricane Katrina also caused complete
                Hurricane Katrina
                                                 failure of communications infrastructure in
                                                 the affected area. The hurricane rendered
                                                 all telephone capabilities inoperable. Lack
                                                 of interoperable communications
                                                 capabilities initially hampered
                                                 communications between NG units, local
                                                 police and fire departments, other civilian
                                                 agencies, and active duty forces and
                                                 precluded the rapid deployment of assets
              Source: www.noaa.gov               from nearby states. NGB officials noted
                                                 that the NG employed more than 55,000
personnel from nearly all states or territories and deployed multiple communication
assets to support Hurricane Katrina rescue and relief efforts. However, there were still
far too few communications capabilities available for a disaster of this magnitude. NGB
officials concluded that the lack of adequate interoperable communications and integrated
operational processes greatly impeded planning, situational awareness, and unity of effort
among all responders within the disaster area. For example, NG unit personnel contacted
their headquarters when they needed to coordinate with local law enforcement. Next, the
unit headquarters personnel contacted the local law enforcement headquarters. Then, the
local law enforcement headquarters contacted the local squad car. Commanders also
used runners to relay orders to NG units.

Efforts to Improve Communications Interoperability
During Domestic Emergencies
In response to the communications problems that NG and Federal responders experienced
                                 in the aftermath of the September 11th terrorist attacks and
  Figure 2. World Trade Center
      on September 11, 2001
                                 Hurricane Katrina, NGB officials accelerated efforts to
                                 field a rapid response communications solution tailored to
                                 the unique requirements of the multiplayer operating
                                 environment at an incident site. NGB JISCC Standard
                                 Operating Procedures (SOPs), January 2009, provides
                                 historical background. In the post-September 11th era, the
                                 NG commissioned analyses of its new mission environment
                                 and readiness to respond to domestic incidents. An NGB
                                 system development document states that one analysis
                                 identified interoperability as a major communications need.
                                 Additionally, during the 2005 hurricane season, NG units
                                 deployed a prototype JISCC and interim interoperable
     Source: http://osd.dtic.mil
                                 communications packages, the JISCC’s predecessor, to the
                                 affected states. After Katrina and several other hurricanes
in 2005, Congress authorized additional funds, so NGB could deploy interoperable
communications equipment to 54 states, territories, and Washington, D.C. (locations).

In 2006, NGB submitted a brief to the JROC, recommending changes to the interoperable
communications architecture among DoD Components and other Federal, state, and local
first responders. The JROC responded with a memo, accepted the recommendations, and
appointed NGB as the proponent for joint development, with primary responsibility to
establish, design, and maintain deployable communications in each state. According to
the JROC memo, these deployable communications were to support active and reserve
forces as far forward as the incident site. Meanwhile, NGB continued fielding a refined
version of the JISCC. In January 2008, the JROC issued another memo and agreed with
the jointly developed communications architecture (which included the JISCC
predecessor). According to NGB records, as of November 2012, NGB and NG units
fielded 97 JISCCs to 54 locations. As of March 22, 2013, NG units had operational
control of the JISCCs.

Solution for Communicating With First Responders and
Federal and State Agencies
NG units use the JISCC as the primary communications bridge between first responders
and other Federal, state, and local agencies during a domestic emergency. The JISCC
                                     can communicate through high-frequency radio,
           Figure 3. JISCC           telephone, video, and satellites with first responders,
                                     and Federal and state agencies’ communications
                                     equipment. According to purchase documents, the
                                     JISCC costs approximately $500,000 per unit
                                     (approximately $48.5 million for 97 units) and
                                     consists of five modules: Reach Back
                                     Communications, Voice Interoperability,
                                     On-Scene Command Post Integration, Incident Site
                                     Communications, and Support Equipment. These
                                     modules deliver services to the incident site and can
         Source: www.gko.mil         accommodate between 1 and 80 users. If additional
                                     users require access, NG units deploy a second JISCC
to the incident site. Most of the JISCC equipment is contained in suitcase-type wheeled
cases or two-man lift cases that provide increased mobility at the incident site. The
JISCC contains its own external power sources and environmental control unit to ensure
that even in the harshest environments, the system will be able to support first responders.
The 5.5 tons of electronic equipment is transported in a C-130 aircraft deployable trailer
that can be unpacked and deployed within 1 hour of arriving at an incident site. NGB
JISCC SOPs recommend between 6 and 10 personnel to support and operate a JISCC.
Additionally, NGB tasked Naval Air Warfare Center Aircraft Division-Special
Communications Requirements Division (NAWCAD SCR) with providing JISCC
sustainment support through a memorandum of agreement and annual statements of
work. NAWCAD SCR performs life cycle sustainment management, configuration



                                             3
management, hardware and software maintenance, parts inventory management, and
engineering sustainment for the JISCCs.4 In 2012, NGB funded $4.8 million for JISCC
sustainment.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses related to interoperable communications capabilities. This occurred because
NGB officials did not have adequate oversight procedures in place to monitor
sustainment of JISCCs provided to NG units. We will provide a copy of the report to the
senior official responsible for internal controls in the NGB.




4
 NAWCAD SCR personnel stated that NG units in Texas and Michigan separately purchased, operated,
and maintained four JISCCs. NAWCAD SCR personnel stated that they provided limited support to these
units when requested.

                                                 4
Finding. Interoperable Communications
Equipment Was Not Always Available,
Maintained, Staffed, or Ready for Use
NGB officials did not always ensure that interoperable communications equipment was
available, maintained, staffed, or ready for use during a domestic emergency.
Specifically, NGB officials fielded JISCCs, but did not always ensure that NG units:

      processed 44 (27.0 percent) of 163 Trouble Reports (TRs) active more than
       30 days from November 2011 through September 2012 (average delay:
       78.3 days) in a timely manner;
      prepared 5 JISCCs for scheduled information assurance assessments between
       June and September 2012;
      sent a sufficient number of JISCC operators to NGB-authorized JISCC training in
       35 (64.8 percent) of 54 locations, of which 12 (22.2 percent) locations sent no
       operators since the course inception in July 2008; or
      completely and accurately reported critical elements of JISCC readiness,
       including underreporting the length of JISCC outages in at least 32 instances.

These conditions occurred because NGB officials did not have adequate oversight
procedures in place to monitor sustainment of JISCCs provided to NG units. As a result,
DoD may experience reduced communications when coordinating with Federal, state,
and local first responders during future domestic emergencies, which may adversely
affect rescue and relief efforts and increase the risk of physical and economic damages
and human casualties.

Availability Concerns Addressed Through
Communications Equipment Fielding
NGB officials fielded JISCCs to address communications equipment interoperability
concerns. NGB, along with NG units in Michigan and Texas, invested approximately
$48.5 million fielding 97 JISCCs to ensure that a deployable interoperable
communications unit was available at each location. NGB intended for JISCCs to
provide NG units with the capability to better coordinate response efforts between DoD,
Federal, state, and local first responders. In 2004, NGB fielded interim interoperable
capabilities to 11 states to support the presidential election and the upcoming hurricane
season. NGB JISCC SOPs state that the interim interoperable capability resulted in a
significantly improved readiness posture and provided a means to validate incident
response requirements. In 2005, NGB fielded a prototype JISCC to the South Carolina
NG. Using lessons learned from the hurricane season and the prototype, NGB developed
a fielding plan to distribute additional JISCCs in support of other state and territory
requirements. NGB upgraded the interim sets to JISCCs and fielded the additional
JISCCs in phases from 2006 through 2008. As of November 2012, JISCCs were fielded
to 54 locations. NGB officials stated that since Hurricane Katrina in 2005, they

                                            5
successfully used the JISCC for numerous national special security events, natural
disasters, and exercises and the JISCC’s availability average was 97 percent. However,
NGB officials did not ensure that NG units always processed repairs in a timely manner,
prepared the JISCC for scheduled information assurance assessments, trained operators,
or reported readiness critical elements.

Communications Equipment Repairs Delayed
NG units did not process JISCC repairs in a timely manner, which delayed
communications equipment repairs. As part of its tasking to perform JISCC life cycle
sustainment management, NAWCAD SCR was required to perform specialized repairs of
faulty JISCC parts on behalf of the Army NG and Air NG. NAWCAD SCR officials
stated that NG units were responsible for the unit-level maintenance of JISCCs. This
includes basic troubleshooting of JISCC problems. Generally, when an NG unit initiated
a request for a JISCC repair action, the NG unit or NAWCAD SCR would generate a TR.
NAWCAD SCR tracked TRs that were active more than 30 days and reported these to
NGB as part of NAWCAD SCR’s monthly sustainment report. From November 2011
through September 2012, NG units or NAWCAD SCR generated 660 TRs, of which
163 TRs were active more than 30 days.5 For 44 of the 163 TRs, NG units caused
47 separate delays of more than 30 days. Specifically, NG units delayed:

        37 TRs by not taking action to provide NAWCAD SCR with troubleshooting
         information or initiate action with outside vendors (average delay: 84.7 days),
        6 TRs by not returning loaned parts or turning in defective parts for repair to
         NAWCAD SCR (average delay: 75.7 days), and
        4 TRs by not providing confirmation of test results on parts repaired by
         NAWCAD SCR or outside vendors (average delay: 60.0 days).

NG unit delays of long running TRs adversely affected JISCC mission capability and
mission readiness. For example, an NG unit delayed a TR (initiated to repair the JISCC’s
environmental control unit) by 262 days. The environmental control unit ensures the
JISCC is not subject to temperature extremes or high humidity. In another example, an
NG unit delayed a TR (initiated to connect the JISCC to the central information server
network) by 180 days. This extended the timeframe that the JISCC went without the
latest Windows and third party software updates. NGB was aware of these delays, but
did not take sufficient actions to address the causes of the delays. These delays were in
addition to delays caused by other factors, such as vendor wait times and awaiting
purchase of nonstocked parts.




5
 We excluded seven TRs initiated for repair work on NAWCAD SCR spare parts, the test JISCC located at
NAWCAD SCR, and the JISCC located in Guam because of the timeframe needed to ship spare parts.


                                                 6
Systems Were Not Prepared for Scheduled Information
Assurance Assessments
NG units did not prepare five JISCCs for scheduled information assurance assessments
between June 2012 and September 2012. NAWCAD SCR stated that NG units are
responsible for preventive maintenance of JISCCs. In addition, NGB’s fielding and
maintenance agreements required NG units to maintain configuration control of the
JISCCs, subject to NGB approval. In 2011, NGB tasked NAWCAD SCR with overall
JISCC configuration management. To assess the risk level for the JISCC, NAWCAD
SCR conducted onsite visits at five NG units between June 2012 and September 2012.
Specifically, NAWCAD SCR tested five JISCCs, each a different variant, to assess the
information assurance risk and to collect data needed to complete the triennial DoD
Information Assurance Certification and Accreditation Process for JISCCs. During the
onsite visits, NAWCAD SCR found that NG units did not perform regular preventive
maintenance on the JISCCs. Specifically, NAWCAD SCR found the following.

      None of the five JISCCs were updated with the latest Windows and third party
       software (including antivirus). NAWCAD SCR attempted to update the five
       JISCCs with the latest software, but because of the volume of updates needed,
       they were unable to complete work at two sites.
      Two of the five JISCCs were not fully operational when NAWCAD SCR arrived
       at the site. Therefore, NAWCAD SCR performed “significant” troubleshooting
       and operational repairs on the two JISCCs.

NAWCAD SCR also found that NG units did not adequately maintain configuration
control of the JISCCs. Specifically, NAWCAD SCR officials found that two of the five
JISCCs were not properly configured to use Windows Server Update Service patches at
the unit level. In addition, NAWCAD SCR monthly sustainment reports identified at
least 12 other instances between November 2011 and September 2012 where other NG
units reported problems connecting to, configuring, or synchronizing JISCCs to Windows
Server Update Service servers. As a result, NAWCAD SCR issued three technical
directives to all NG units, two with instructions to ensure that NG units regularly update
JISCCs with the latest Windows and third party software, and one with instructions on
how to install and configure Windows Server Update Service servers.

Insufficient Number of Communications Equipment
Operators Sent to NGB-Authorized System Training
NG units did not send a sufficient number of JISCC operators to NGB-authorized JISCC
training in 35 (64.8 percent) of 54 locations. According to DoD Directive 5105.77,
“National Guard Bureau,” May 21, 2008, the Chief, NGB, must prescribe the training
discipline and training requirements for the Army NG and Air NG and provide for the
allocation of Federal funds for the training of both. NGB JISCC SOPs state that each
unit should have at least six people to deploy and set up each JISCC. To address these
requirements, NGB and 193rd Regiment Regional Training Institute (RTI) officials stated
that NGB authorized and provided funds to the RTI to conduct JISCC training. However,
since the course inception in July 2008, RTI’s records showed that NG units in 35

                                            7
(64.8 percent) of the 54 locations had an insufficient number of operators who received
NGB-authorized JISCC training. Of the 210 minimum recommended personnel6
(35 states multiplied by 6 personnel), these 35 states only trained 52 personnel from 2008
through 2012. In addition, RTI training records showed that 12 of the 35 locations had
                                             no NGB-authorized trained operators, and
    RTI training records showed that         7 states had only 1. See Appendix B for the list
      12 of the 35 locations had no          of states with an insufficient number of
   NGB-authorized trained operators, personnel who received JISCC training through
         and 7 states had only 1.            RTI. Instead, these NG units relied on other
                                             forms of JISCC training that was not as
adequate. As an example, an RTI official stated that every state received new equipment
training during the initial fielding of the JISCC, but the new equipment training was basic
in nature and not equivalent in depth and scope to RTI’s JISCC training. NGB officials
acknowledged that they did not track or plan to track JISCC operator training attendance,
but they will continue to encourage NG unit participation.

Readiness Reporting Procedures Were Error Prone
and Incomplete
NG units did not completely or accurately report critical elements of JISCC readiness,
including underreporting the length of JISCC outages in at least 32 instances, between
November 2011 and July 2012. Further, information in NGB’s informal reporting
processes contained errors and did not capture all of the critical elements necessary to
assess readiness. Chairman of the Joint Chiefs of Staff Instruction 3401.02B, “Force
Readiness Reporting,” May 31, 2011, establishes the readiness reporting elements that
DoD Components must assess (including personnel, equipment, and training) and
outlines how DoD Components should measure these elements. NGB officials tasked
their Joint Command, Control, Communications, and Computers (C4) Coordination
Center (JCCC) with “routinely being cognizant of the JISCC resource status in all states
and territories.” NGB officials noted that the JCCC accomplishes this using several
methods, including daily NGB JCCC Battle Update Briefs (BUBs) and the 2012 JISCC
Communications Exercise (COMMEX).7 However, both the BUBs and COMMEX
included several errors and did not capture all critical elements of readiness assessments.




6
  This represents the minimum number of personnel necessary to operate one JISCC in each of the
35 states. Some states have more than one JISCC.
7
  The other methods used included sustainment reports and trouble tickets. Both the sustainment reports
and trouble tickets tracked maintenance concerns already captured in the BUBs.

                                                    8
Readiness Reporting Errors
The BUB and COMMEX used to track JISCC readiness were prone to errors. For
example, we reviewed 37 of 248 NGB BUBs8 published between November 2011 and
July 2012 and identified the following errors:

       51 (46.8 percent) of 109 JISCC outages in which the BUB incorrectly reported the
        length of the outage and 32 system outages (29.4 percent) were at least 3 days
        more than reported in the BUB;
       4 instances in which a BUB listed JISCCs as being both mission capable and
        nonmission capable in different sections of the same brief; and
       1 BUB reported four nonmission capable JISCCs, five nonmission capable
        JISCCs, and six nonmission capable JISCCs in different sections of the same
        brief.

Additionally, the 2012 JISCC COMMEX did not accurately portray NG unit readiness.
Specifically, NGB delayed reporting NG units’ participation in the COMMEX until
4 months after the exercise completion deadline. NGB issued a letter of instruction in
December 2011 that required NG units to conduct a COMMEX on all 97 JISCCs. The
                                         instruction required NG units to test and report
   NGB delayed reporting NG units’       on the video teleconference, data, voice, radio,
  participation in the COMMEX until      and interoperability readiness of each JISCC
      4 months after the exercise        before June 1, 2012. The purpose of the
          completion deadline.           COMMEX was to ensure readiness before the
                                         beginning of the Atlantic hurricane season,
which is from June 1 through November 30. Instead of reporting results as of June 1,
2012, NGB summarized the COMMEX results through September 30, 2012 (when the
season was 66.7 percent over), documenting that 88 (90.7 percent) of 97 JISCCs were
successfully tested. However, the BUB dated May 31, 2012, showed that by June 1,
2012, only 72 (74.2 percent) of 97 JISCCs were successfully tested.

Incomplete Readiness Reporting
The BUB and COMMEX used to track JISCC readiness were incomplete because they
only tracked JISCC equipment status and did not track the other essential readiness
assessment elements, such as training and personnel. Further, the 2012 COMMEX was
essentially a checklist that only verified equipment operational status and was not a
reliable test of unit readiness. While the purpose of the COMMEX was to help establish
and assess JISCC mission readiness, the COMMEX instruction did not clarify whether
mission readiness referred to equipment, personnel, or both. Instead, NGB provided NG




8
  NGB developed at least one BUB daily with few exceptions. Generally, there were only minor changes
from 1 day to the next, so we selected BUBs prepared on specific dates at weekly intervals from
November 8, 2011, through July 17, 2012. See Appendix A for additional information on the selection of
BUBs.

                                                   9
units a list of the JISCC’s components and operational capabilities and instructed them to
verify that the JISCC could perform each function. For example, NG units had to verify
that:

      the JISCC could connect to the internet, place a phone call, and initiate a video
       teleconference;
      radios and interoperability equipment functioned; and
      generators provided an uninterrupted power supply.

These procedures could have demonstrated operator proficiency if NG units had
completed them independently. However, NG units were not required to complete them
on their own. NGB help desk and NAWCAD SCR personnel were available throughout
the exercise to answer operator questions, troubleshoot, and resolve problems with
completing the COMMEX. Finally, adequate JISCC readiness reporting procedures
might have revealed to NGB the extent of the training and maintenance deficiencies
identified in our audit.

Improved Oversight Needed for the Repair and
Maintenance Processes
NGB officials did not have adequate oversight procedures in place to monitor NG unit
responsibilities for JISCC repair and maintenance processes. JROC Memorandum, “Joint
Force Headquarters–State Doctrine, Organization, Training, Materiel, Leadership and
Education, Personnel and Facilities Change Recommendation,” August 28, 2006,
appoints NGB as the overall lead agency to ensure that a deployable communications unit
(what eventually became the JISCC) was not only established and designed, but also
maintained in each state to support active or reserve component forces. Army Regulation
750-1, “Army Material and Maintenance Policy,” September 9, 2007, applies to Army
NG units and states that equipment repairs are to be resolved immediately and that
equipment, components, and systems are to be routinely checked, adjusted, and changed
in accordance with specifications. In addition, Air Force Instruction 21-101, “Aircraft
and Equipment Maintenance Management,” July 26, 2010, applies to Air NG units and
states that all levels of supervision must place emphasis on safety, quality, and
performing timely maintenance, and to the greatest extent possible, maintenance should
be accomplished on a pre-planned, scheduled basis. However, NGB personnel did not
ensure that NG units responded to resolve JISCC repair actions in a timely manner. NGB
officials stated that they monitored outstanding JISCC repairs active more than 30 days
and contacted NAWCAD SCR and NG units as needed to resolve JISCC related
                                        problems. However, NGB officials did not address
   NGB personnel did not ensure         the causes of the delays. Specifically, NGB did not
       that NG units performed          have measurable performance metrics to not only
  regular, preventive maintenance ensure NG units took timely actions to resolve
              on JISCCs.                JISCC TRs active more than 30 days, but also to
                                        ensure that these delays did not reoccur. In
addition, NGB personnel did not ensure that NG units performed regular, preventive
maintenance on JISCCs. NGB officials stated that they relied upon NG unit commanders


                                            10
to determine routine maintenance schedules and maintenance requirements for JISCCs in
accordance with the JISCC SOPs, but NGB officials did not prescribe or communicate
maintenance requirements or schedules specific to the JISCC that would ensure NG units
applied consistent maintenance practices. Further, NGB officials did not ensure adequate
configuration management of JISCCs. NGB’s agreements with NG units to field and
maintain the JISCCs required NGB to maintain central configuration control of JISCCs,
and to approve NG unit configuration changes to the JISCCs. However, from
November 2011 through September 2012, at least 14 NG units did not have JISCCs
properly configured.

The deficiencies in NG unit repairs and maintenance processes adversely affected JISCC
readiness and sustainability. NAWCAD SCR personnel stated that there were five
variants of JISCCs, each variant having legacy components at or near their obsolescence.
Because of this, it is critical that NG units follow through more timely to resolve JISCC
repair actions active more than 30 days, perform routine and preventative maintenance of
JISCCs, and coordinate with NGB to ensure adequate configuration management.
NGB’s configuration management plan, once completed, may address configuration
management problems, but NGB did not provide the draft plan for our review.
Therefore, the Chief, NGB, should establish oversight procedures to verify that NG units
resolve repair and troubleshooting actions in a timely manner and perform regular
preventive maintenance procedures for JISCCs.

Better Oversight of Training Requirements Needed
NGB officials did not provide adequate oversight of JISCC training. Specifically, NGB
officials did not ensure that NG units followed uniform training requirements for JISCCs.
Section 10503, title 10, United States Code, “Functions of National Guard Bureau:
charter,” states that the NGB is responsible to:

      prescribe the training discipline and training requirements for the Army NG and
       Air NG;
      ensure that units and members of the Army NG and Air NG are trained by the
       states; and
      monitor and assist the states in organizing, maintaining, and operating NG units to
       provide well-trained and well-equipped units capable of augmenting the active
       forces in time of national emergency.

NGB authorized JISCC training through RTI, but did not ensure JISCC operators
attended the training. Specifically, an NGB official stated that they worked with RTI to
establish and fund a JISCC training program. However, NGB did not prescribe the
JISCC training requirements for, monitor, or ensure NG units participation in the RTI
training. NGB officials stated that they encouraged the states to send personnel to RTI
for JISCC training; however, states make their own personnel training decisions after
considering multiple factors to include current deployments and availability of training
funds. NGB expected NG unit commanders to ensure that personnel were qualified to
operate the JISCC and received NGB-authorized JISCC training.


                                           11
Further, NGB officials stated that most JISCC operators have technical knowledge of the
JISCC’s individual electronic components because of their general training in
information technology. However, RTI officials stated that they teach NG unit personnel
to operate the JISCC with other DoD and non-DoD participants in “real event” scenarios.
In addition, RTI officials stated that NG unit funding and workload requirements for
mission essential tasks and other training limited opportunities9 for operators to
participate in NGB-authorized JISCC training. Had NGB performed better oversight of
the training by identifying the JISCC operator training requirements and monitoring the
states’ participation, NGB might have established another JISCC training program, such
as computer-based training more suited to the schedules of the JISCC operators. In an
environment where most NG personnel are part-time forces who do not participate in NG
unit daily operations, the Chief, NGB, should establish oversight procedures to verify that
appropriate NG unit personnel receive NGB-authorized JISCC training.

Readiness Reporting Practices Needed Improvement
NGB did not have formal procedures in place to monitor JISCC readiness and the
informal procedures used were incomplete, error prone, and could provide a misleading
picture of NG units’ readiness to respond to a domestic emergency. Although NGB
officials stated that the NG units are not required to routinely report JISCC readiness, the
NGB should refer to the reporting guidance in Chairman of the Joint Chiefs of Staff
Instruction 3401.02B as a best practice to monitor and ensure the mission readiness of the
JISCC. Because emergencies could occur at any time, NG units must be ready to provide
support at a moment’s notice. To ensure JISCCs are available for use and that NG units
can respond with as little delay as possible, it is critical that NGB accurately tracks not
only equipment operational status of each JISCC, but also the length of any JISCC
outages as well as the availability and training of JISCC operators and maintainers. The
goal of readiness reporting is to ensure personnel and equipment availability during
crises. Without adequate readiness reporting of the elements described in DoD guidance,
NGB had little assurance that NG units’ primary communications interoperability tool,
and its operators, could effectively respond to the next domestic emergency. Therefore,
the Chief, NGB, should establish oversight procedures to verify that NG units report the
readiness status of personnel and equipment for JISCCs in a timely manner.

NGB Strategy for Communications Equipment Sustainment
NGB officials stated that the NGB’s long-term JISCC strategy is to continue to work with
the Army and the Air Force to integrate JISCC capabilities into existing Service
programs of record (PORs) and institutionalize the JISCC capability in NG organizations,
so the JISCC shares the same status as any other mission asset. In a January 14, 2008,
memorandum, the JROC requested that the Army and Air Force integrate the JISCC
program into existing Service PORs; however, implementation of this request was
delayed. While NGB officials stated that they are working with the Army to incorporate


9
    RTI officials stated that the NG receives 15 training days annually.



                                                       12
the JISCC requirements into an existing POR by FY 2018, they noted that as of
April 2013, the Air Force did not provide the Air NG with timelines and a funding
resources plan for integrating the JISCC capability into an Air Force POR.

In the interim, NGB officials stated that their JISCC oversight and sustainment strategy
included:

      establishing a formal memorandum of agreement with each state or territory
       specifying state or territory responsibilities related to JISCC ownership,
      working with RTI to establish and fund a JISCC Training Program,
      contracting with NAWCAD SCR to provide JISCC sustainment support through a
       memorandum of agreement and annual statements of work, and
      conducting an annual COMMEX where operators tested JISCCs by completing a
       comprehensive checklist provided by NGB.

NGB officials further clarified that the JISCC oversight and sustainment strategy was
shaped and constrained by the NG’s dual mission (state and Federal) and the fact that
NGB has no formal authority over the NG units. Operating and sustaining commercial
off-the-shelf, non-POR assets like the JISCC are additional responsibilities that NGB and
NG units must generally accomplish on a time available basis. In contrast, Service PORs
established performance metrics, oversight controls, and logistical and funding support as
required by DoD Directive 5000.01, “The Defense Acquisition System,”
May 12, 2003 and DoD Instruction 5000.02, “Operation of the Defense Acquisition
System,” December 8, 2008. POR status ensures that systems procured have plans for
maintenance, training, and readiness reporting.

NGB officials stated that under a POR, the JISCC program would benefit from:

      permanently assigned personnel,
      standardized training track requirements,
      mandated readiness reporting in the Defense Readiness Reporting System, and
      stabilized sustainment funding.

The NGB’s JISCC oversight and sustainment strategy appeared to optimize JISCC
availability but not JISCC sustainment and readiness. JISCCs are in all 54 locations, but
NGB has no assurance that the JISCC will be ready to deploy (operational) to an incident
site when needed. The deficiencies identified in this report, if not corrected, could
adversely affect the sustained availability and readiness of the JISCCs. NGB personnel
should provide proper oversight to improve JISCC repair and maintenance, training, and
readiness reporting because of the 5-year timeline for NGB to integrate JISCCs for the
Army NG into an existing POR and the Air Force delays in integrating their JISCCs into
a POR.




                                            13
Conclusion
Hurricane Katrina’s destruction of the communications infrastructure and lack of
satellite-based interoperable communications capabilities greatly hampered
communications between responding NG units, local police and fire departments, other
civilian agencies, and active duty military forces. In this environment, NG units were
limited to using indirect communications to communicate with local police departments
and even resorted to using runners to relay orders to NG units. Delays caused by these
types of indirect communications may mean the difference between life and death for
incident victims and responders. To address this issue, NGB, along with NG units in
Michigan and Texas, invested approximately $48.5 million to field JISCCs.
Additionally, the Army and Air NG funded $4.8 million in 2012 for JISCC sustainment
to better coordinate response efforts and promote situational awareness at man-made and
natural disaster sites. However, without formally reporting, tracking, and resolving
maintenance and training concerns, NG units may be unprepared for the next domestic
emergency.

Management Comments on the Finding and
Our Response
Comments on the Finding
The Director, NG-J6/Chief Information Officer (CIO), NGB, responded on behalf of the
Chief, NGB and agreed that more formalized, detailed, and accurate monitoring and
validation processes are required for tracking maintenance timeliness, training support,
and readiness status of JISCC assets. He stated that NGB’s long-term strategy is to
transition the JISCC from a commercial-off-the-shelf package to an equivalent Army and
Air Force POR capability. However, he acknowledged delays presented significant
challenges that must be addressed in the near term to ensure sustainment of the JISCC
inventory. Therefore, within a framework of available authorities in relation to NG state
or territory organizations, the Director stated that NGB would formally implement a
comprehensive strategy to improve visibility, timeliness, and accuracy of JISCC
sustainment actions and reporting. The timelines for the strategy are outlined in his
comments on the recommendations.

Our Response
The Director’s comments are responsive to the conditions identified in the finding.

Recommendations, Management Comments, and
Our Response
We recommend that the Chief, National Guard Bureau, establish oversight
procedures, including performance metrics, to verify that National Guard units:

    1. Resolve repair and troubleshooting actions for the Joint Incident Site
Communications Capability system in a timely manner.


                                           14
National Guard Bureau Comments
The Director, NG-J6/CIO, NGB, responded on behalf of the Chief, NGB and agreed with
the recommendation. The Director stated that NGB worked with NAWCAD SCR on a
daily basis to address JISCC maintenance concerns and established spare parts
inventories and “risk kits.” Typically, these capabilities and processes collectively
contribute to minimal non-availability of JISCC systems as spare parts inventory assets
are quickly forwarded to the state/territory to restore the JISCC, even as the original parts
are under repair. However, he acknowledged that process improvements could improve
visibility of repair status, increase state or territory NG responsiveness to maintenance
action requirements, and reduce average repair times for parts. The Director stated that
NGB would review all processes for potential improvements and develop, publish, and
distribute a JISCC maintenance plan that institutionalizes processes, timelines, and
organizational responsibilities for required maintenance actions by September 1, 2013.
In addition, he stated that the JCCC would track and report compliance with the JISCC
maintenance plan and NG-J6/CIO Directorate staff would work with NAWCAD SCR
and their subcontractors to shorten the repair cycle of major parts.

       2. Perform regular preventive maintenance procedures for the Joint Incident
Site Communications Capability system.

National Guard Bureau Comments
The Director, NG-J6/CIO, NGB, agreed with the recommendation, but stated that the
JISCC design is based on a concept of removal and replacement of inoperable
components and the state or territory NG organizations are responsible for information
assurance requirements. The Director also stated that NGB has no directive authority
over state or territory NG organizations, but acknowledged the challenges this has caused
with ensuring timely compliance by state or territory organizations to perform preventive
maintenance and information assurance updates for JISCCs. Therefore, the Director
stated that NGB would distribute JISCC SOPs that detail preventative maintenance
procedures and information assurance updates to state or territory NG organizations by
July 1, 2013. He also stated that by the first quarter of FY 2015, NGB would implement
a comprehensive JISCC technology refreshment plan that includes capabilities allowing
NGB to remotely monitor compliance and facilitate implementation of information
assurance update requirements.

    3. Receive National Guard Bureau-authorized Joint Incident Site
Communications Capability system training.

National Guard Bureau Comments
The Director, NG-J6/CIO, NGB, agreed with the recommendation, but stated that
authorities did not allow NGB to mandate the RTI JISCC training course as a prerequisite
to serving on a JISCC team. He also stated that NGB did not formally provide training
guidelines or historically track JISCC training status for state or territory NG personnel
under the JISCC training construct. The Director acknowledged that more proactive
measures and engagement in JISCC training would enhance JISCC team preparedness


                                             15
and responsiveness in supporting emergency operations. He stated that beginning July 1,
2013, the JCCC would track, on a quarterly basis, the number of trained JISCC operators
available in each state or territory NG organization with assigned JISCC assets. He
reiterated that NGB will continue to monitor JISCC operator proficiency during
evaluations, exercises, and other events that employ JISCC assets. Additionally, he
stated that NGB would develop, publish, and distribute a JISCC training guide that
establishes recommended minimum requirements for skill sets and training guidelines to
state or territory NG organizations by September 1, 2013. Finally, he stated that NGB
planned to work with NAWCAD SCR to create and distribute JISCC computer-based
training by December 1, 2013.

       4. Report the readiness status of personnel and equipment for the Joint
Incident Site Communications Capability system in a timely manner.

National Guard Bureau Comments
The Director, NG-J6/CIO, NGB, agreed with the recommendation. The Director stated
that because the JISCC program is not a POR, NGB could not compel state or territory
NG organizations to report JISCC status as they do with Service-assigned mission assets.
However, he acknowledged that processes for reporting JISCC readiness include
inconsistencies and conflicting information and stated process improvements would
increase accuracy, consistency, and utility. The Director stated that the JCCC would
publish and distribute an updated SOP for reporting on the JISCC system to state or
territory NG organizations by September 1, 2013. Additionally, he stated that the JCCC
would continue to track equipment status on a daily basis, but would now also track
personnel and training status on a quarterly basis.

Our Response
Comments from the Director were responsive. No further comments are required.

Management Comments on the Review of Internal
Controls and Our Response
Comments on the Review of Internal Controls
The Director, NG-J6/CIO, NGB, stated that NGB established and evolved a range of
overlapping management actions and redundant checking processes that were specifically
designed to ensure JISCC systems operate as intended and are optimally available to
support mission requirements. The Director stated that because of these management
actions and redundant checking processes, there has never been a single mission delayed
or otherwise impacted by JISCC failure. However, he agreed that inadequately
documented processes and institutionalized metrics could potentially result in long-
term sustainability issues and NGB needed to address these issues.




                                           16
Our Response
Overall, we agree with comments from the Director. However, the Director stated,
“because of these management actions and redundant checking processes, there has never
been a single mission delayed or otherwise impacted by JISCC failure.” We believe,
without full implementation of our recommendations, the likelihood that NGB will
experience mission delays or other impacts will increase.




                                         17
Appendix A. Scope and Methodology
We conducted this performance audit from April 2012 through April 2013 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our original objective was to determine whether DoD satellite communications services
and equipment were interoperable during a national emergency. During our planning
phase, we identified and focused our audit on specific equipment fielded to address
interoperability preparedness for domestic emergencies. Additionally, we clarified
terminology related to national/domestic emergencies in the objective. Our revised
objective was to determine whether DoD communications equipment was available,
maintained, staffed, and ready for use to ensure interoperability during a domestic
emergency.

To accomplish the objectives, we used the standards, procedures, and metrics in the
following guidance to assess the interoperable DoD communications equipment.

      Section 10503, title 10, United States Code, “Functions of the National Guard
       Bureau: Charter,” states that NGB is responsible for NG training requirements
       and the monitoring of the state NG units ability to augment active forces in an
       emergency.

      DoD Directive 3025.18, “Defense Support of Civil Authorities (DSCA),”
       December 29, 2010, establishes authorities and responsibilities for DSCA
       missions.

      DoD Directive 5105.77, “National Guard Bureau,” May 21, 2008, directs the
       Chief, NGB to implement DoD, Army, and Air Force guidance on the structure,
       strength, and other resources of the NG, and to prescribe training requirements
       and allocation of Federal funds for training NG personnel.

      DoD Directive 5000.01, “The Defense Acquisition System,” May 12, 2003, along
       with DoD Instruction 5000.02, provides management principles and mandatory
       policies and procedures for managing all acquisition programs.

      DoD Instruction 5000.02, “Operation of the Defense Acquisition System,”
       December 8, 2008, establishes a management framework for translating capability
       needs into stable, affordable, and well-managed acquisition programs to achieve
       cost, schedule, and performance goals for DoD Components.




                                           18
         Chairman of the Joint Chiefs of Staff Instruction 3401.02B, “Force Readiness
          Reporting,” May 31, 2011, establishes the readiness reporting elements DoD
          Components must assess and outlines how DoD Components should measure
          these elements.

         Army Regulation 750-1, “Army Material and Maintenance Policy,” September 9,
          2007, applies to Army NG units and states that equipment repairs are to be
          resolved immediately and that equipment, components, and systems are to be
          routinely checked, adjusted, and changed in accordance with specifications.

         Air Force Instruction 21-101, “Aircraft and Equipment Maintenance
          Management,” July 26, 2010, applies to Air NG units and states that all levels of
          supervision must place emphasis on safety, quality, and performing timely
          maintenance, and to the greatest extent possible, maintenance should be
          accomplished on a pre-planned, scheduled basis.

         NG Regulation 350-1, “Army National Guard Training,” August 4, 2009, states
          the Chief, NGB, will provide program and budget oversight in support of Army
          NG training requirements.

         NG Regulation 500-1, “National Guard Domestic Operations,”
          June 13, 2008, states that the Chief, NGB, acts as the channel of communication
          to the state Adjutants Generals, but has no authority to command the NG.
          However, the Chief, NGB, may direct the NG on matters, including force
          structure, training, and appropriations.

         Air NG Instruction 36-2001, “Management of Training and Operational Support
          Within the Air National Guard,” October 19, 2009, states that the Air NG is
          responsible for implementing and administering approved NGB policies for the
          Air NG.

We also reviewed agreements between NGB and NG units and between NGB and
NAWCAD SCR to ascertain roles and responsibilities for repairs and maintenance, staff
training, and readiness reporting. In addition, we obtained, reviewed, and analyzed the
following documentation to determine whether NGB provided adequate oversight of
JISCC operations:

         repairs and maintenance – NAWCAD SCR sustainment reports covering the
          period November 2011 to September 2012,* and the NAWCAD SCR JISCC Risk
          Assessment Plan. Specific to the monthly sustainment reports, we reviewed
          summaries of JISCC repair actions active more than 30 days and JISCC
          sustainment engineering and information assurance status.



*
    NAWCAD SCR provided sustainment reports starting in November 2011.

                                                 19
      staff training – RTI training records from 2008 through 2012 and training records
       from nonstatistically selected NG units located in Austin, Dallas, and Round
       Rock, Texas; Charleston and Kingwood, West Virginia; North Smithfield, Rhode
       Island; and Columbia and Greenville, South Carolina; and

      readiness reporting – NGB used BUBs to track JISCC readiness and outages.
       NGB published at least one BUB almost every day and often published more than
       one. From November 8, 2011, to July 17, 2012, NGB produced 248 BUBs. We
       reviewed BUBs between November 14 and November 17, 2011, and determined
       that there was very little difference in JISCC operational status on a day-to-day
       basis. Therefore, based on auditor judgment, we chose to review BUBs at weekly
       intervals from November 8, 2011, to July 17, 2012, selecting one BUB each week
       for 37 weeks. If NGB did not publish a BUB on a selected date, we selected a
       BUB from either the day before or the day after. Several dates selected for review
       included multiple BUBs published at different times throughout the day. We
       visually compared multiple sets of slides for several dates. We determined
       differences between the versions did not materially affect our results and
       reviewed only one version per the select date.

We conducted site visits to U.S. Northern Command, Colorado Springs, Colorado; the
166th Air Wing, Air NG, New Castle, Delaware; and RTI, Bethany Beach, Delaware. We
interviewed NGB, U.S. Northern Command, RTI, and NAWCAD SCR subject matter
experts. We also observed JISCCs in operation at the 166th Air Wing,
Air NG, New Castle, Delaware, and RTI, Bethany Beach, Delaware.

Use of Computer-Processed Data
NAWCAD SCR personnel provided computer-processed data consisting of monthly
sustainment reports generated using the Maintenance Action Reporting System from
November 2011 through October 2012. Monthly sustainment reports summarized
maintenance actions (technical service actions) active more than 30 days. We
interviewed NAWCAD SCR personnel about system operations and controls. We
reviewed technical service action status or category codes (codes) where resolving or
continuing maintenance processes required NG unit personnel to participate in the
process or act in some manner. We compared codes in sustainment reports with notes in
subsequent reports to determine whether expected changes in codes occurred, indicating
NG unit follow through. Technical service actions reported elapsed days in ranges of
30 or more days. We determined that errors of even several days were unlikely to affect
ranges consisting of at least 30 days. We concluded that the data were sufficiently
reliable for purposes of our analyses and findings.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) issued five reports
discussing National Guard interoperable communications while supporting homeland
defense and DSCA. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov.

                                           20
GAO
GAO Report No. 12-114, “Homeland Defense and Weapons of Mass Destruction:
Additional Steps Could Enhance the Effectiveness of the National Guard’s Life-Saving
Response Forces,” December 7, 2011

GAO Report No. 10-386, “Homeland Defense: DoD Can Enhance Efforts to Identify
Capabilities to Support Civil Authorities During Disasters,” March 30, 2010

GAO Report No. 10-364, “Homeland Defense: DoD Needs to Take Actions to Enhance
Interagency Coordination for Its Homeland Defense and Civil Support Missions,”
March 30, 2010

GAO Report No. 09-849, “Homeland Defense: U.S. Northern Command Has a Strong
Exercise Program, but Involvement of Interagency Partners and States Can Be
Improved,” September 9, 2009

GAO Report Number 08-311, “Homeland Security: Enhanced National Guard Readiness
for Civil Support Missions May Depend on DoD’s Implementation of the 2008 National
Defense Authorization Act,” April 16, 2008




                                          21
Appendix B. States With Insufficient
Numbers of Trained Personnel
                        Number of Personnel Trained              Additional
     State                                                    Trained Personnel
                 2008   2009   2010   2011   2012     Total       Needed*
Alaska                                                 0              6
Arkansas                 1                             1             5
Connecticut                                            0             6
District of
                                                       0             6
Columbia
Georgia                         1       2              3             3
Guam                                                   0             6
Hawaii                   1                             1             5
Illinois                 1                             1             5
Indiana                         2                      2             4
Iowa                                    1              1             5
Kansas                                  3              3             3
Kentucky                        1              1       2             4
Louisiana                1              1              2             4
Massachusetts                           2              2             4
Mississippi                             3              3             3
Montana                         2       2              4             2
Nebraska                 2                             2             4
Nevada                          1       1      1       3             3
New
                         4                     1       5             1
Hampshire
New Jersey                                             0             6
New Mexico                              1      1       2             4
North Carolina                                 4       4             2
North Dakota      1                                    1             5
Oklahoma                                               0             6
Oregon                                  1              1             5




                                       22
                             Number of Personnel Trained                         Additional
    State                                                                     Trained Personnel
                   2008      2009     2010      2011     2012       Total         Needed*
Puerto Rico                                                               0           6
Rhode Island                                                              0          6
South Carolina                                                            0          6
South Dakota                   1                                          1          5
Texas                                                                     0          6
Virgin Islands                                                            0          6
Vermont                                 3                                 3          3
West Virginia                                                             0          6
Wisconsin                               1                   1             2          4
Wyoming                                 1                   2             3          3
Sub-Total            1        11        12       17        11         52           158
Grand Total                                                                         210
  * The minimum number of personnel required to operate a JISCC is six.




                                                    23
National Guard Bureau Comments *




*NGB initially provided comments marked "For Official Use Only;" however, NGB later provided an
 updated Security Classification Review form indicating the comments were unclassified because no
Freedom of Information Act exemption applied.


                                             24
25
27
